ARKANSAS COURT OF APPEALS
DIVISION I
No. CV-18-638
Opinion Delivered: March 6, 2019

DAVID BRENNAN
APPELLANT
V.
WHITE COUNTY, ARKANSAS
APPELLEE

APPEAL FROM THE WHITE
COUNTY CIRCUIT COURT
[NO. 73CV-17-502]

HONORABLE CRAIG HANNAH
JUDGE
AFFIRMED

BART F. VIRDEN, Judge
David Brennan challenges the White County Circuit Court’s order dismissing his
request for declaratory judgment regarding the constitutionality of the White County
ordinance prohibiting the manufacture and sale of alcohol and the “local-option” set forth
in Arkansas Code Annotated sections 3-8-801 to -811. We affirm.
I. Relevant Facts
On September 11, 2017, Brennan filed a complaint in the White County Circuit
Court requesting that the court determine the constitutionality of the local-option
framework allowing White County citizens to vote to prohibit the manufacture and sale of
alcoholic beverages. In his complaint, Brennan asserted that the local-option framework is
unconstitutional on its face and violates his substantive due-process rights; namely, his right
to contract and association. Brennan, who lives in Searcy, asserted that he wishes to apply
for a liquor license and open a package store in his home town, that he wants to

consume

alcohol at restaurants in Searcy, and that he would like the option to purchase alcohol at
stores without having to travel outside his county. Brennan contended that prohibition of
the sale of alcohol in White County negatively affects his ability to safely travel along the
county highways, and he suffers an “unnecessarily increased risk of being involved in an
alcohol-related, fatal crash.” Brennan also argued that in dry counties, drug-related crime
constitutes a greater threat to the public than in counties where the sale of alcohol is legal.
White County filed a motion to dismiss Brennan’s complaint, arguing that the localoption framework is constitutional as a matter of law. Brennan responded to the motion to
dismiss, contending that there is no governmental purpose furthered by the local-option
framework. Brennan urged the circuit court to apply the heightened level of scrutiny
provided for in the Arkansas Constitution to determine the constitutionality of the statutes.
White County countered Brennan’s argument by explaining the myriad government
interests served by the local-option laws, including the promotion of public health,
reduction in crime and related law-enforcement costs, increase in worker productivity, and
reduction of health-care costs. White County also asserted that under either the Arkansas
Constitution or the federal Constitution, the rational-basis test is the appropriate test for
ascertaining the constitutionality of the statutes.
On April 24, 2018, the circuit court entered an order dismissing Brennan’s
complaint. The circuit court, determined that White County’s local-option ordinance and
the statutory framework allowing the local optio n are subject to the rational-basis test under
the due-process provisions of both the Arkansas Constitution and the U.S. Constitution and

2

that the local-option framework is constitutional as a matter of law. Brennan timely filed his
notice of appeal.
On appeal, Brennan asserts that both the statutory local-option framework and the
local prohibition of alcohol sales in White County violate citizens’ “rights of contract and
association” and “the right to engage in otherwise legal business activities and relations[.j”
He argues that no legitimate state interest is furthered by these laws and that police power
may not be used to impose the “majority morality” on those whose conduct does not harm
others. Brennan also asserts that the Arkansas Constitution requires a heightened level of
scrutiny for the state’s use of police power.
Alternatively, Brennan argues that if this court decides there is a legitimate state
interest involved here, the local-option framework is an arbitrary and ineffective way of
advancing those interests; thus, the framework is unconstitutional. Lastly, Brennan contends
that subsequently enacted legislation fundamentally conflicts with the local-option
framework, rendering the local option “the quintessence of irrational.” We affirm.
II. Standard of Review
This court reviews a circuit court’s decision to grant a motion to dismiss pursuant to
Arkansas Rule of Civil Procedure 12(b)(6) by treating the facts alleged in the complaint as
true and by viewing them in the light most favorable to the plaintiff. Archer v. Sigma Tau
Gamma Alpha Epsilon, Inc., 2010 Ark. 8, at 4, 362 S.W.3d 303, 306. In viewing the facts in
the light most favorable to the plaintiff, the facts should be liberally construed in the

3

plaintiffs favor. Id. Our rules require fact pleading, and a complaint must state facts, not
mere conclusions, in order to entitle the pleader to relief. Id.
111. Points on Appeal
A. The Rational-Basis Test
First, we address Brennan’s assertion that the circuit court erred in finding that the
rational-basis test is the correct test to determine the constitutionality of the local-option
framework. Brennan urges this court to perform its analysis under a heightened level of
scrutiny; however, his argument is not well taken, and we hold that the rational-basis test
applies here.
Brennan contends that Arkansas law requires that “legislation must bear a real or
substantial relationship to the protection of public health, safety and welfare, m order that
personal rights and property rights not be subjected to arbitrary or oppressive, rather than
reasonable invasion.” Brennan likens this case to Jegley v. Pieado, 349 Ark. 600, 80 S.W.3d
332 (2002), in which our supreme court struck down the sodomy statute as unconstitutional
and held that by burdening certain sexual conduct between members of same sex, the statute
infringed on the fundamental right to privacy guaranteed under State Constitution. The
instant case is distinguishable from Pieado because here no fundamental rights are at stake.
In Yarbrough v. Beardon, 206 Ark. 553, 177 S.W.2d 38 (1944), our supreme court held that
local option elections are not an unconstitutional delegation of executive or legislative
authority, and liquor-license holders are n ot deprived of any fundamental right by the local
option because holding a liquor license is a privilege—not a fundamental property right.

4

More recently, in Shannon v. Wilson, 329 Ark. 143, 158, 947 S.W.2d 349, 357 (1997), our
supreme court held, “The legislature has enacted statutes which regulate the liquor industry.
Foremost, our legislature has declared that holding a license to sell alcoholic beverages is a
privilege, not a right. Ark. Code Ann. § 3-3-218(a) (Repl.l996).” Indeed, Arkansas Code
Annotated section 3-3-218(a) provides, “It is the specifically declared policy of the General
Assembly that all licenses issued to establishments for the sale or dispensing of alcoholic
beverages are privilege licenses^]” No fundamental rights are at stake, and the circuit court
did not err in finding that the rational-basis test is the appropriate test for evaluating the
constitutionality7 of the local-option framework.
Another reason the rational-basis test is the correct approach here is that when a
statute falls within the General Assembly’s police powers to regulate an industry7 of general
public interest, we apply the rational-basis test. McLane S., Inc. v. Davis, 366 Ark. 164, 167,
233 S.W.3d 674, 677 (2006). The states have the power to regulate alcohol pursuant to the
Twenty-first Amendment which repealed prohibition and set forth that “[t]he transportation
or importation into any State, Territory, or possession of the United States for delivery7 or

’Brennan cites to multiple cases in which our supreme court evaluates the
constitutionality of various statutes at a heightened level of scrutiny. Each of the cases he
cites are distinguishable because they involve a fundamental right that is curtailed iin some
wa y by the enacted legislation. See Craighead Elec. Coop. Corp. v. Craighead Cty., 352 Ark.

76, 98 S.W.3d 414 (2003) (interaction of utility easement and private-property rights); Hand
v. H & R Block, Inc., 258 Ark. 774, 781, 528 S.W.2d 916, 920 (1975) (property rights in
franchise name); Beaty v. Humphrey, 195 Ark. 1008, 115 S.W.2d 559 (1938) (property rights
of barbers).

5

use therein of intoxicating liquors, in violation of the laws thereof, is hereby prohibited.”
U.S. Const, amend. XXI. There is a presumption in favor of the validity of state regulation
in the area of liquor control. California v. LaRue, 409 U.S. 109, 118—19, (1972). A state has
broad power to regulate the times, places, and circumstances under which it will permit the
sale ofliquor. New York State Liquor Auth. v. Bellanca, 452 U.S. 714, 715 (1981) (per curiam).
The regulation of alcohol is of general public interest; thus, the rational-basis test is
applicable here.2
Under the rational-basis test, legislation is presumed constitutional and rationally
related to achieving any legitimate governmental objective under any reasonably
conceivable fact situation. Eady v. Lansford, 351 Ark. 249, 92 S.W.3d 57 (2002).
Additionally, all statutes are presumed constitutional, and we resolve all doubts in favor of
constitutionality. Ark. Tobacco Control Bd. v. Sitton, 35/ Ark. 357, 166 S.W.3d 550 (2004).
The party challenging a statute’s constitutionality has the burden of proving that the act is

2Brennan asserts that voter-enacted “initiatives and referenda are inconsistent with
the republic form of government—because, lacking the standards and controls of a
deliberative legislative body, they offer no protections against a tyranny of the majority.”
Brennan offers no persuasive authority for his argument, and again he cites us to a case in
which fundamental rights are at stake, and the voter-enacted initiative directly violates
constitutional principles. See Hunter v. Erickson, 393 U.S. 385 (1969) (implementation of a
raci ally discriminatory city ordinance through popular referendum did not immunize it from
constitutional challenge). He also cites to City of Eastlake v. Forest City Enterprises, Inc., 426
U.S. 668, 679 (1976), in which the Supreme Court held, “As a basic instrument of
democratic government, the referendum process does not, in itself, violate the Due Process
Clause of the Fourteenth Amendment when applied to a rezoning ordinance ” Brennan’s
argument that voter-enacted initiatives require a heightened level of scrutinv is unsupported
and unpersuasive.
'
rr

6

unconstitutional. See id. It is not our role to discover the actual basis for the legislation. Ark
Hosp. Ass’n v. Ark. State BA. ofPharni., 297 Ark. 454, 763 S.W.2d 73 (1989). We merely
consider whether there is any rational basis that demonstrates the possibility of a deliberate
nexus with state objectives so that the legislation is not the product of arbitrary and
capricious government purposes. Streight v. Ragland, 280 Ark. 206, 655 S.W.2d 459 (1983).
If we determine that any rational basis exists, the statute will withstand the constitutional
challenge. Ark. Hosp. Ass’n, supra.
B. Majority Morality
We now turn to Brennan’s first argument that the local-option framework is
unconstitutional because it serves no purpose other than to impose “majority morality” on
the citizens of Arkansas. We disagree and affirm.
Brennan contends that “the reason and only purpose of the local option is to sate the
desire of the local majorities to impose their morality on the whole of their populations
while allowing the State to benefit from a considerable alcohol economy carried out by the
less righteous.” Again, Brennan compares the instant case to Picado. Brennan urges this court
to determine, as it did in Picado, that there is no legitimate government interest furthered by
the challenged statutes and that the only purpose served is to impose a “majority morality.”
Brennan’s argument fails. In Picado, our supreme court recognized that there is no
government interest furthered by regulating noncommercial, consensual sexual conduct and
that the statute s criminalization of that conduct is an unconstitutional infringement on the
right to privacy. However, the courts have long recognized the legitimate
government

7

interest in promoting the public health, safety, and welfare associated with the regulation of
alcohol. Indeed, in Gipson v. Morley, 217 Ark. 560, 567, 233 S.W.2d 79, 83 (1950), our
supreme court held that “it is within the competency of the legislature to determine under
the police power what regulatory rules are needful in controlling a type of business fraught
with perils to public peace, health and safety as is the liquor business.”
The history of the legitimacy of the government interest in regulation of alcohol is
not the issue, however. White County has no obligation to produce evidence to sustain the
rationality of a statutory classification. See Heller v. Doe. by Doe, 509 U.S. 312, 320 (1993).
Rational-basis review in equal protection analysis “is not a license for courts to judge the
wisdom, fairness, or logic of legislative choices.” FCC v. Beach Commc’ns, Inc., 508 U.S.
307, 313 (1993). The courts may not act as a superlegislature “to judge the wisdom or
desirability of legislative policy determinations made in areas that neither affect fundamental
rights nor proceed along suspect lines.” New Orleans v. Dukes, 427 U.S. 297, 303 (1976).
Instead, the statute “must be upheld against equal protection challenge if there is any
reasonably conceivable state of facts that could provide a rational basis for the classification.”
Beach Commc’ns, 508 U.S. at 313. As White County states in its brief, the correlation
between alcohol misuse and detrimental effects on a person’s health is one of many rational
bases for the local-option framework; thus, Brennan has failed to meet his burden of proving
that the local-option framework is not rationally related to achieving any legitimate
objective of state government under any reasonably conceivable state of facts.

8

i

C. Effectiveness of the Local-Option Framework
Brennan’s second challenge to the local-option framework is his contention that it is
ineffective at furthering the stated government interests of promoting public health, safety,
and welfare; thus, the local-option framework is arbitrary and unconstitutional. Brennan
cites to research and studies to support his argument that the local option is an ineffective
means for promoting highway safety and the reduction of crime. Because the effectiveness
of the legislation is not a factor in determining a statute's constitutionality, we affirm.
When reviewing statutes under the rational-basis test, the court must not “review
the wisdom or rightness of the legislation” but must only determine if there is any reasonable
basis to support it. Four Cty. (NW) Reg’l Solid Waste Mgmt. Dist. Bd. v. Sunray Sews., Inc...
334 Ark. 118, 127, 971 S.W.2d 255, 260 (1998). As we discussed above, the promotion of
public health is a reasonable basis for the existence of the local-option framework. Brennan
presents a public-policy argument that the local-option framework does more harm than
good when it comes to road safety and illegal-drug abuse; however, effectiveness of the
statutes in furthering the government interest is immaterial to our analysis, and Brennan
cites no persuasive authority to support his argument that arguably ineffectual legislation is
unconstitutional. On this point, we affirm.
D. Acquired Irrationality Due to Subsequent Legislation
Lastly, Brennan argues that subsequent legislation, such as the local option to allow
private clubs to serve alcohol within an otherwise dry' county, has rendered the local-option
framework meaningless; thus, there is no rational basis for the statutes, and they

9

are

unconstitutional. Brennan cites no authority to support his argument that subsequent
legislation can undermine the constitutionality of previously enacted legislation. This court
may refuse to consider an argument when appellant fails to cite any legal authority, and the
failure to cite authority or make a convincing argument is sufficient reason for affirmance.
Moody v. Moody, 2017 Ark. App. 582, at 12, 533 S.W.3d 152, 160. Moreover, as White
County explains, the local-option statutes and the exemption for private clubs set forth in.
Arkansas Code Annotated section 3-9-221 can be read in harmony. Section 3-9-221
provides that the private-club exemption in dry counties furthers the state interest in
promoting economic development and tourism by allowing the sale of alcoholic beverages
by the individual drink at private clubs. The counties that opt to remain dry may decide to
prohibit alcohol sales at liquor stores, convenience stores, grocery stores, and any other
establishment where alcohol may legally be sold; thus, the private-club exemption does not
render the local-option framework irrational or unconstitutional.
Affirmed.
Abramson and Hixson, jj., agree.

10

OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 MARSHALL STREET
LITTLE ROCK, AR 72201

APRIL 3, 2019

RE: COURT OF APPEALS CASE NO. CV-18-638
DAVID BRENNAN V. WHITE COUNTY, ARKANSAS

THE ARKANSAS COURT OF APPEALS ISSUED THE FOLLOWING ORDER TODAY IN
THE ABOVE STYLED CASE:
“APPELLANT’S PETITION FOR REHEARING IS DENIED.”
SINCERELY,

STACL\H%CTOL. CLERK
CC:

DAVID BRENNAN
COLIN JORGENSEN
WHITE COUNTY CIRCUIT COURT
(73CV-17-502)

OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK. AR 72201

MAY 23. 2019

RE: SUPREME COURT CASE NO. CV-19-228
DAVID BRENNAN V. WHITE COUNTY, ARKANSAS

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWING ORDER TODAY IN THE
ABOVE STYLED CASE:
“APPELLANT’S PETITION FOR REVIEW IS DENIED. WOOD,. J.; WOULD GRANT.”
SINCERELY,

0
LINDA RYERSON. CFfmF DEPUTY CLERK
CC: DAVID BRENNAN
COLIN R. JORGENSEN
WHITE COUNTY CIRCUIT COURT
(CASE NO. 73CV-17-502)

